GR-90-99-003
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the City of Phoenix Police Department
Arizona
 
GR-90-99-003
 
OCTOBER 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of four
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Phoenix Police Department (PPD), Arizona. The PPD
received a grant of $3,900,000 to hire or rehire 52 sworn officers under the Accelerated
Hiring, Education, and Deployment Program (AHEAD) and $15,000,000 to hire 200 sworn
officers under the Universal Hiring Program (UHP). In addition, the PPD received
$1,615,689 to redeploy 99.4 sworn officer full-time equivalents (FTEs) into community
policing under the Making Officer Redeployment Effective program (MORE 95) and $476,703 to
redeploy 18.9 sworn officer FTEs to community policing under the MORE 96 program. The
purpose of the additional officers under the grant program is to enhance community
policing efforts. 

In brief, the most significant findings were:



The PPD was unable to document the redeployment of 99.4 sworn officer FTEs to community
      policing under the MORE 95 grant resulting in $917,881 of unsupported costs. If the PPD
      cannot provide documentation regarding the redeployment of 99.4 sworn officer FTEs, then
      the remaining grant award balance ($697,808) should be deobligated and the funds put to
      better use. 




The PPD generally was not in compliance with grant reporting requirements. The PPD
      failed to submit the 1996 and 1997 Annual Department Reports. The PPD also failed to
      submit the 1996 Progress Report for the MORE 95 grant. The Department Initial Report
      overstated the number of sworn officer positions in the PPD. In addition, the PPD did not
      submit one Financial Status Report (FSR) for the MORE 95 grant and two FSRs for the MORE
      96 grant. Four FSRs for the MORE 95 grant and five FSRs for the AHEAD/UHP grants were
      submitted late.


These items are discussed in detail in the Findings and Recommendations section of the
report. Our scope and methodology appear in Appendix II.
#####